<html>
<title> - JOINT COMMITTEE MEETING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                        JOINT COMMITTEE MEETING

=======================================================================

                                MEETING

                               before the

                      JOINT COMMITTEE OF CONGRESS
                              ON THE LIBRARY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

             MEETING HELD IN WASHINGTON, DC, JUNE 28, 2006

                               __________

   Printed for the use of the Joint Committee of Congress on the Library


                    U.S. GOVERNMENT PRINTING OFFICE
32-721                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   JOINT COMMITTEE ON THE LIBRARY

     VERNON J. EHLERS, Representative from Michigan, Chairman
           TED STEVENS, Senator from Alaska, Vice-Chairman

CANDICE MILLER, Michigan                  THAD COCHRAN, Mississippi
CHARLES TAYLOR, North Carolina            TRENT LOTT, Mississippi
JUANITA MILLENDER-McDONALD,               CHRISTOPHER J. DODD, Connecticut
   California                             CHARLES E. SCHUMER, New York
ZOE LOFGREN, California

                   Bryan T. Dorsey, Staff Director
                 Jennifer Mies Lowe, Staff Director



                        JOINT COMMITTEE MEETING

                              ----------                              


                        WEDNESDAY, JUNE 28, 2006

                          House of Representatives,
                            Joint Committee on the Library,
                                                    Washington, DC.
    The joint committee met, pursuant to call, at 3:06 p.m., in 
room H-140, The Capitol, Hon. Vernon Ehlers (chairman of the 
joint committee) presiding.
    Present: Representatives Ehlers, Miller, Taylor, Millender-
McDonald, and Lofgren.
    Chairman Ehlers. Good afternoon. The only good news I 
received so far is an e-mail I just received that said we 
probably won't have votes in the House until 4 o'clock, at the 
earliest, so that means our meeting should not be interrupted. 
The bad news is that we are likely to not have any Senators 
present because of various meetings and circumstances they have 
in the Senate. However, we have full representation for the 
House, so we, under the rules, are allowed to proceed without 
any Senators present, and so we will take up our business.
    First item of business is--this is to remind me as much as 
anyone--please turn off cellular phones, pagers, et cetera, so 
we can have a nice progressive quiet meeting.
    I will proceed with the opening statement.
    I certainly welcome our representatives here. I am glad you 
are setting an example by all showing up. And I won't say 
anything about that indicating better operation of the House, 
that would be impolite, so I didn't say that. But I just wanted 
you to know I am not saying it.
    The committee's agenda has some important business items 
that need our immediate consideration. Our first witness is the 
Librarian of Congress, Dr. James H. Billington. Dr. Billington 
will be discussing two items with us today. First, the 
Librarian is seeking JCL endorsement of his plans to redesign 
the space within the Jefferson Building. This proposal has the 
potential to open up nearly triple the amount of existing to 
the public within the Jefferson Building, and I look forward to 
hearing more of Dr. Billington's plans on this topic.
    Second, the Librarian is seeking JCL approval to explore 
the possibility of naming the National Audio Visual 
Conservation Center in Culpeper, Virginia after Mr. David 
Woodley Packard, a distinguished gentleman from the State of 
California. Mr. Packard had donated the majority of the money 
for the creation of this new facility which will house the 
entirety of the library's audio visual collections. The 
committee appreciates the intention of the Librarian to 
recognize Mr. Packard's generosity, and looks forward to 
hearing more about the exploratory efforts into naming the 
facility for its primary benefactor.
    I have personally met Mr. Packard's father some years ago, 
and in fact, would not have been able to complete my Ph.D 
research without the wonderful equipment that he generated when 
they first started Hewlett Packard company.
    Next we will hear from the Architect of the Capitol, Mr. 
Alan M. Hantman. Mr. Hantman will be discussing several issues 
with us today pertaining to statues and their placement, and 
will give us an update on the status on the National Garden 
Project that is nearing completion.
    Regarding the proposal for the relocation of statues in the 
National Statuary Hall collection to the Capitol Visitor Center 
and the subsequent relocation within the Capitol, I want to 
stress the importance of bringing this to the JCL members' 
attention now, as we are roughly 1 year from the opening of the 
CVC. This proposal has been developed in conjunction with 
House, Senate and Capitol curators, and some input from me 
after I had an initial briefing.
    From the earliest discussions, one of the benefits of the 
CVC facility was that it would lessen the congestion in the 
Capitol by increasing the amount of space available for 
artistic and historic works in the CVC.
    I urge all members to review this proposal, and we will 
soon be organizing meetings for members to meet with the 
curators to assist in the development of a final plan that will 
meet JCL approval.
    Mr. Hantman will also discuss concerns about a proposed 
design of a replacement statue requested by the Alabama Statue 
Committee. Members may remember that in 2001, the JCL approved 
the Alabama Statue Committee's request to replace their statue 
of Jabez Lamar Monroe Curry with a statue of Helen Keller. Last 
year, the JCL approved their request to depict Helen Keller as 
a child. The Statue Committee has now submitted their final 
design plan for JCL approval. The architect will present 
concerns regarding this design. The JCL will send a letter to 
the Alabama Statue Committee outlining those issues, and state 
that final JCL approval is contingent upon addressing those 
concerns.
    Also on our agenda today is the discussion of H.R. 4145, 
which was signed into law last December directing the JCL to 
procure a statue of Rosa Parks. Following the adoption of H.R. 
4145, JCL staff approached the House, Senate and Capitol 
curators to determine an appropriate process.
    In keeping with the precedent set with the procurement of 
the bust of Martin Luther King, Jr., the Architect of the 
Capitol has approached the National Endowment for the Arts to 
run the artist selection process. The NEA has outlined how they 
would manage this process, and is ready to proceed as soon as 
an interagency agreement is signed. Included in the House 
version of the Legislative Branch Appropriations Act of 2007 is 
$370,000 for the commission of the statue, and an 
administrative provision giving the JCL the authority to direct 
the Architect of the Capitol to sign that interagency 
agreement. It is my intention that we will formally endorse 
this process today.
    Finally, Mr. Hantman will give the committee a construction 
update on the progress of the National Garden.
    We look forward to hearing from our witnesses today and 
coming to resolution on several of these matters.
    Again, I want to welcome all of the members here today. And 
I was about to turn to the vice chairman for his statement, but 
there will not be one; mine was long enough to make up for both 
of us.
    This is probably one of the busiest JCL meetings that I 
have ever attended. There has been lot of activity with the CVC 
and with other areas of the Library, partly as a result of the 
work on the CVC, and so we have a lot of business today.
    Next we turn to Dr. James Billington, the Librarian of the 
Congress, for some brief comments regarding the issues of the 
Jefferson Building redesign and the naming of the National 
Audio Visual Conservation Center.
    Dr. Billington, you are recognized.

    STATEMENT OF JAMES H. BILLINGTON, LIBRARIAN OF CONGRESS

    Mr. Billington. Thank you, Chairman Ehlers, members of the 
committee, it is really an honor and pleasure to be able to 
speak before you today. In the interest of time, I would ask 
that my statement be submitted for the record, along with the 
updated information we provided about a number of important 
developments in the Library.
    Chairman Ehlers. Without objection, so ordered.
    [The statement of Dr. Billington follows:]
    [GRAPHIC] [TIFF OMITTED] T2721A.001
    
    [GRAPHIC] [TIFF OMITTED] T2721A.002
    
    Mr. Billington. I will confine my remarks to the two topics 
that appear on your agenda, the Jefferson's Visitors Experience 
and recognition in naming the Audio Visual Center in Culpeper, 
Virginia for its principal donor, David Woodley Packard. The 
Library will provide briefing materials on both of these 
topics.
    The Library's Jefferson experience will focus on Bringing 
Knowledge into Life, that is the theme, with 10 exhibitions 
that will make accessible in new ways vast areas of the 
Library's collection. With Congress's support, since 1800, the 
library has amassed the largest collection anywhere of the 
world's knowledge and of our Nation's creativity. The Visitor's 
Experience in the Jefferson Building will introduce a greatly 
expanded number of visitors permitted by the passageway from 
the new CVC, a great number of--increased number of visitors to 
the richness of what Congress has preserved in its library. It 
will use state-of-the-art technology to link the visitor to the 
on-going quest for knowledge into the library's Web-based 
resources for learning. We ask for the committee's endorsement 
today of this general project, noting that the Library will 
continue to update the committee as we finalize all of the 
specific plans for the individual exhibition elements.
    Our excellent chief of staff, Jo Ann Jenkins, behind me 
here is managing the development of the Jefferson Visitors 
Experience, and she, as well as I, will be glad to answer any 
questions that the committee has about it.
    The second item, the Library has received a number of major 
gifts over the course of my tenure here. The completion of the 
new National Audio Visual Conservation Center by the Packard 
Humanities Institute----
    Chairman Ehlers. May I interrupt you for a second? Let's 
dispose of the Jefferson Building exhibit issue first. Do you 
have any drawings or charts that you wish to enter?
    Mr. Billington. Yes. Mr. Chairman, this outline of the 
proposal with a visual explanation, timelines and some visual 
depiction of the plan.
    Chairman Ehlers. I just wanted to make certain that all the 
members had seen this. I have seen it before, but----
    Mr. Billington. Yes, sir.
    Chairman Ehlers. I want to make sure everyone had.
    Mr. Billington. If there are for any specific questions 
that have been raised about this, either now or later, of 
course we will be happy to answer them.
    But we are proceeding on the basis of respect for the 
integrity of the marvelous restoration that the Congress has 
done of the extraordinary Jefferson building, but at the same 
time, utilizing new techniques, and above all, the connection 
between the enhanced exhibits in the public spaces of the 
Library and the online virtual library, which, as you know, 
received about nearly 4 billion electronic transactions last 
year and will probably receive a great deal more than that, it 
is an educational tool free for everyone everywhere.
    So we want to make a connection with that, but we also want 
to accommodate the vastly increased number of visitors that are 
expected with the opening of the CVC and the passageway through 
to the Library.
    Chairman Ehlers. And this will not involve any major 
reconstruction, correct? It is just operating within the 
existing facility.
    Mr. Billington. No. We are carefully trying to keep from 
restructuring and reconfiguring in any major way. We are 
building some new exhibition space in one area for this 
collection, and there will be some other minor accommodations 
to the new exhibits and the new materials. But it basically 
will respect the integrity of the building. In fact, part of 
the purpose of it, one of the major exhibits is the building 
itself--is to illuminate in new ways to enable people to see 
some of those marvelous frescoes drawings, and mottos, the 
various exuberant features of the interior space there.
    Chairman Ehlers. And I understand this is going to be 
financed entirely with contributions?
    Mr. Billington. Yes. This is all privately funded. We have 
just received, I am happy to say, just yesterday, a million 
dollar private donation for the creation of America exhibit, 
which we will be putting on since the Library of Congress has 
practically all the documents of the 18th century which led to 
the creation of the United States.
    So as we celebrate creativity, we kind of begin by 
celebrating the creativity involved in the very creation of the 
United States of America.
    Chairman Ehlers. Any questions from members?
    Representative Millender-McDonald. Mr. Chairman.
    Chairman Ehlers. Yes, Ms. Millender-McDonald.
    Representative Millender-McDonald. Thank you very much.
    And this is really quite an innovative program. I was 
struck when I got this from staff and saw the first thing 
creating the United States. That is something that I am going 
to go online and look at and see what is going on, because 
those are important things that when I speak to students on the 
high-school campuses, they are asking all of these things, 
discovering the world. I think these are not only innovative, I 
think they are very much exciting for a new breed, a whole new 
infrastructure, if you will, for the Library of Congress. And 
so I applaud you on this. I certainly am very excited about the 
interaction through technology because within--I hope I am not 
overstepping in saying that this is something that our children 
in the schools and all can then access so that they can have 
this outstanding--these galleries brought right into their 
schools and into their homes.
    And Mr. Chairman,--it is all privately funded, an important 
aspect. So I am very thrilled and excited about this, and I 
certainly endorse it. Thank you, Mr. Chairman.
    Chairman Ehlers. Thank you. The gentlewoman from Michigan, 
the wonderful state of Michigan.
    Representative Miller. Yes. We do love our state of 
Michigan, Mr. Chairman, but I just want to associate myself 
with Representative Millender-McDonald's remarks as well, 
because this is an exciting thing.
    Watching the Library of Congress and all of this technology 
that you are talking about incorporating reminds me of when the 
Internet was really coming into its heyday 10 years ago, and 
people would think about librarians or libraries almost 
becoming passe, because of all this technology. But instead of 
that the libraries, with the national model of the Library of 
Congress, have really become the role model of how we can 
utilize kiosks and technology in everything.
    Our younger generation, of course, is so used to accessing 
all kinds of information electronically, and as you incorporate 
all that into this, I think it is going to be a fantastic 
thing. And particularly with the new Capitol Visitors Center, I 
was thinking, just coming to this meeting here today, trying to 
get through the hallway with all the visitors that are all 
lined up into the hallways trying to get over into taking a 
Capitol tour, and how we might take advantage of attracting 
visitors into the Jefferson Building.
    I was just wondering, do you have any idea or estimate of 
how many additional visitors you might think would come to the 
Library of Congress once all of that is melded into itself?
    Mr. Billington. Well, the figure that we have been given by 
experts who study this is it is likely to be as many as 3\1/2\ 
million people, as distinguished from the somewhat over a 
million that we annually get already. There will be two 
entrances, not only the entrance from the Capitol Visitors 
Center, which is of course very important--and by the way, this 
will celebrate an aspect of the Congress that will be in 
addition to those celebrated in the Visitors Center itself 
because we are the only government in the world that has 
preserved the private sector creativity of its people in all 
its different aspects.
    And by locating the Copyright Office in the Library of 
Congress, the Congress, as the legislative branch of 
government, has, in fact, been the preserver of its own 
creative heritage of not just of what governments do, but 
really what individuals have done in all different walks of 
life.
    So yes, the entrance will be not only for the Capitol 
Visitors Center, but also from the upper steps through the 
building's main entrance. So they will be able to go in, and 
the first experience will be the Great Hall itself, this 
marvelous space. And there will be the entry point direct from 
those steps so that we will be able to welcome visitors but 
interfere with the entry or work for scholars or the work of 
the reading rooms. Scholars and researchers will enter from the 
other side of the building. The new entrance will permit a 
greatly increased flow of visitors which current estimates 
indicates might be as much as three times or perhaps 3\1/2\ 
times as much as now visiting.
    Representative Miller. Okay, well, thank you very much.
    Chairman Ehlers. Other questions or discussion?
    Just one comment, I don't know to what extent the members 
of this committee, the newer members have had an opportunity to 
tour the Library of Congress, but I certainly hope you would 
contact all of them and offer a tour. And I should take another 
one, it has been several years since I have been there.
    Thank you very much. So your request at this point is to 
proceed with the design. And I therefore move that we endorse 
the Library of Congress Jefferson Building Exhibit Space 
Redesign Plan contingent upon the commitment of the Librarian 
to keep the JCL fully apprised of the progress being made with 
regard to the redesign plans it moves forward. The question----
    Representative Millender-McDonald. I second that, Mr. 
Chairman.
    Chairman Ehlers. The question is on the motion, all those 
in favor say aye. Aye. Those opposed, no. The motion is 
adopted. The motion is agreed to, the plan is endorsed.
    Next we move to the naming of the National Audio Visual 
Conservation Center.
    At this time, the committee is moving to approve the 
Librarian's request to explore naming the NAVCC after its major 
donor. The committee also expects that we will be kept fully 
informed of developments of your discussions and design plans, 
and that final approval of the naming will be brought before 
this committee again for review and approval.
    Representative Lofgren. Mr. Chairman.
    Chairman Ehlers. Yes, Representative Lofgren.
    Representative Lofgren. I would just like to know--I was 
actually not focused on the fact that we have long ago set the 
precedent of naming things for private individuals in the 
Library. And although one could argue we should not have ever 
done that, that is long past us. And so, I will certainly not 
raise that issue today.
    I would just like to say that David Packard was a resident 
of my county and I knew him, and he was a marvelous individual. 
And his son, really it couldn't be a better choice because of 
the premier role he has played, actually, in the preservation 
of film in a very generous way. So I think this is very 
fitting, and I appreciate the Librarian's leadership in this, 
not to mention the great generosity of the Packard family.
    Chairman Ehlers. I appreciate your comments because there 
has been some controversy about naming--not this particular 
naming, but naming of certain other things in the Library. But 
this particular facility is far outside Washington, and I think 
there should be no question about proceeding with this.
    Congressman Taylor.
    Mr. Taylor. Mr. Chairman, I would support what the young 
lady has just said. As a member of the legislative branch sub-
committee since 1993, I have seen the great works that the 
Packard family has done and the contributions they have made to 
the Library. And I will certainly echo what the young lady said 
that tribute should be paid to people who make that kind of 
contribution.
    Representative Lofgren. Well, I certainly appreciate being 
referred to as a young lady, that is the first time that that 
has happened in quite some time.
    Chairman Ehlers. I will refer to you that way more 
frequently.
    I take it there is general agreement----
    Representative Millender-McDonald. Mr. Chairman, may I just 
make a statement, though? I certainly do concur with you as 
long as they say ``young lady.''
    While I concur with my colleague from California and those 
on the committee, Mr. Chairman, I am concerned about naming of 
buildings. We can go on and on ad infinitum with this. 
Hopefully we can review this to be very cautious as we move 
because once something starts, then it becomes a rippling 
effect. And we just cannot name all of these public buildings 
after folks, irrespective of the contributions that they make.
    So at one point, I suppose we need to review that. I will 
not oppose this, but of course, I think this is something we 
need to look at.
    Chairman Ehlers. Point well taken. And as you know, there 
is an absolute rule against naming anything in the Capitol 
Building for any person, other than someone who has served 
here. Similarly, when the Visitor Center concept was developed, 
there was an attempt to raise money. We couldn't raise large 
amounts of money without naming things, and the Speaker, in his 
wisdom, absolutely refused and said we will pay for it 
ourselves then.
    The Botanic Garden, there has been some controversy about 
that, and there has been controversy about various artifacts in 
the Library as well. And there is a loose policy, I don't think 
there is a tight policy at this point.
    Representative Lofgren. Mr. Chairman, I was wondering, the 
same question about a policy--and clearly I think we are all 
one mind on this particular instance, but I would like to see a 
written policy so that we don't get into trouble down the line, 
and perhaps that is something the Librarian could suggest to 
us.
    Chairman Ehlers. I think there is a written policy, but I 
would request that the staff go back and review the various 
policy decisions made in the past and see if they form a 
coherent picture or whether we really have to come up with a 
stated policy.
    In view of the affirmative comments, I move to authorize
    Dr. Billington and his staff to explore the idea of naming 
the National Audio Visual Conservation Center after Mr. David
    Woodley Packard. The question is on the motion. All those 
in favor say aye. Aye. Those opposed, no. The ayes have it, and 
the motion is agreed to and the request is approved.
    Thank you, Mr. Billington, for your testimony and your 
efforts. And thank you to the Library staff, too. The Library 
staff is very dedicated. I have a daughter who is a librarian, 
and she is also very dedicated. And so I appreciate----
    Representative Millender-McDonald. Kudos all over the place 
today.
    Chairman Ehlers. Yes. I thought of a phrase, Congresswoman 
Miller, as you were talking about the change of computers, and 
that was survival for libraries and librarians, and survival 
brings progress in this case. So the libraries of today are 
far, far more useful and more valuable than they were 20 years 
ago.
    Chairman Ehlers. Now the committee turns its attention to 
Mr. Alan Hantman, the Architect of the Capitol. We look forward 
to hearing briefly from him on several matters pertaining to 
the Capitol Visitor Center's statue plan, other statues and the 
National Garden. Mr. Hantman, we turn to you for any comments 
or testimony you would like to offer.

   STATEMENT OF HON. ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
                            CAPITOL

    Mr. Hantman. Good afternoon, Mr. Chairman, members of the 
Joint Committee, and thank you for this opportunity to testify 
here today.
    I would like to update you on, of course, several of the 
issues that you mentioned, the first of which would be the CVC 
statue plan. As final construction issues continue to progress 
on the Capitol's Visitor Center, we are turning our attention 
to the exhibits and the art work that will enhance the CVC. Not 
only will the CVC welcome visitors, it will provide them with 
an introduction to the U.S. Capitol. Therefore, it is important 
to reflect the present, but also be respectful of the past.
    A way to link today with the traditions of yesterday is to 
relocate some of the statues in our National Statuary Hall 
collection from the Capitol to the CVC. As you mentioned 
before, Mr. Chairman, many of the statues that we have are kind 
of stuck in corners or backed up one to the other and not 
really displayed respectfully, and as you indicated, I think 
the CVC gives us an opportunity to do there that so they can 
actually be seen as they were designed.
    So the Architect of the Capitol, the House and the Senate 
curators have drafted a plan which outlines criteria for 
selecting statues to move and the reasons for moving them. 
Based on their knowledge, their experience and expertise, they 
originally identified 14 statues to be relocated from the 
National Statuary Hall collection to the CVC. Upon receiving 
feedback from the JCL staff, as well as you mentioned for 
yourself, Mr. Chairman, I had my staff revisit the plan and 
identify 14 additional locations in the CVC based on load 
capacity which could support statues.
    In reality, if we identified spaces throughout the CVC, 
spaces, some of which were not really visible to the public, we 
could probably go up to about 48 statues, but I am not sure 
that is a recommendation we want to make at this point.
    It is recommended, however, that statues selected to be 
moved into the CVC include those most recently added to the 
collection, only one per State, however, to allow for more 
diversity in the people represented and showing citizens who 
are part of our representational government.
    Another factor in placement should be the safety of both 
the statue and the visiting public. Other statues are very 
popular with visitors, and as a result, require additional care 
and conservation. Other considerations will be given to statue 
placement such as aesthetics, balance in the room in which each 
statue is placed, and its visibility.
    Given the costs associated with relocating the statues, we 
recommend that anywhere from 20 to 28 be moved to the CVC great 
hall and its surrounding areas. Other statues from the 
collection would be relocated within the Capitol Building to 
increase visibility and visit or accessibility to their home 
State statues. A list of statues recommended for relocation has 
been provided to the committee for its consideration. Exact 
locations have not yet been fully determined, nor has a 
schedule for these moves been decided.
    I would like to note for the record that the current 
arrangement of statues in the National Statuary Hall and the 
idea from having statues from the 13 colonies in the east front 
lobby was proposed by my predecessor, George White, in 1975. 
This plan went into effect as part of the partial restoration 
of the hall for the 1976 Bicentennial. The plan was approved at 
the time by the Chairman of the Joint Committee on the Library 
and the Chairman of the Senate Committee on Rules and 
Administration. In addition, the plan was reviewed and approved 
by an advisory committee consisting of a curator from the 
Smithsonian, director of the National Collection of Fine Arts, 
director of the National Gallery of Art, and the chairman and 
executive secretary of the Fine Arts Commission.
    Our plan, Mr. Chairman, is to return to this concept by 
placing 13 statues representing the original 13 colonies in the 
crypt. The plan's goal was to restore order and beauty to the 
whole. Ten statues representing original States were moved to 
the east front lobby, which reduced overcrowding in the hall. 
In the National Statuary Hall there was a careful alternating 
arrangement of bronze and marble, with the bronzes placed in 
front of the columns. The statues were arranged in descending 
order of height on either side of the north entrance, and the 
seated statues were placed on either side of the fireplaces.
    Mr. Chairman, what we are presenting to you is a 
recommendation that was not developed in a vacuum, however, it 
is vital to have the committee's input and support of any plan 
that moves forward.
    [The statement of Hon. Hantman follows:]
    [GRAPHIC] [TIFF OMITTED] T2721A.003
    
    [GRAPHIC] [TIFF OMITTED] T2721A.004
    
    [GRAPHIC] [TIFF OMITTED] T2721A.005
    
    [GRAPHIC] [TIFF OMITTED] T2721A.006
    
    [GRAPHIC] [TIFF OMITTED] T2721A.007
    
    Chairman Ehlers. All right. I thank you for your summary of 
that. Just a bit of history, when the plans for the Capitol 
Visitors Center were being developed, the idea was to move 
approximately--and we talked only in rough numbers of 25 to 45 
statues over there because the Capitol really looks a bit 
cluttered with the large number of statues we have here. And 
the worst part is visitors frequently cannot see the statues to 
good advantage because some are in front of others et cetera. 
So the idea was to move quite a few over to the CVC.
    And so when I heard the lower number that Mr. Hantman gave, 
I thought that was really not enough. So I appreciate you 
coming back with new plans and new ideas.
    I don't think there is any further action needed from us on 
this issue, is there, other than discussion?
    Mr. Hantman. That is correct, sir.
    Chairman Ehlers. All right. The gentlelady from California?
    Representative Lofgren. Yes, Mr. Chairman.
    I understand that having the original 13 and not all of 
them, I mean, that makes total sense. But taking a look at--it 
is appendix A that would be moved, I do have a concern--well, 
two suggestions. First, I think that the delegation of each 
State ought to be consulted before we move forward to solicit 
their point of view. And I would just note because it is in 
order, it has the unfortunate impact of all native peoples 
being moved to the basement, and I don't think that is 
something we necessarily want to do. I mean, you have got the 
New Mexico statue and North Dakota, Wyoming and even Hawaii, 
and it has only been in recent times that we have recognized 
native peoples, but I think there will be some concern about 
that. And I think it is better to raise it early than late. And 
I would suggest maybe some other method than just time might 
want to be considered.
    Mr. Hantman. Mr. Chairman, if I may, just one comment.
    Chairman Ehlers. Yes, Mr. Hantman.
    Mr. Hantman. I think your comments are certainly 
appropriate. One thing that I want to point out to you is when 
you talked about moving them to the basement, what I would like 
to show you is a rendering of the great hall. And there are 
skylights over here letting in lots of light from the outside. 
These are representational statues that might be placed in the 
great hall. In fact, again, I want to thank you, Chairman 
Ehlers, for having so many Members of the House come on down 
and take a look at the space. I welcome the opportunity to walk 
all of you down there and show you what the space looks like 
because I think it is actually a space of honor, a space of 
quality that we are talking about over here.
    Clearly, States may choose to have their statues remain in 
the original Capitol as opposed to this complement to the 
Capitol, and that needs to be determined by people, other than 
myself certainly. But the ability to move statues I think is a 
good one.
    In fact, many of the delegates and the people from the 
State of Hawaii had come and basically asked to have their 
statue moved to the great hall over here because clearly, King 
Kamaya, for instance, is displayed in the second row----
    Representative Lofgren. He is stuck in the corner.
    Mr. Hantman. He really is. So I think, again, there are 
quality locations, and I welcome the opportunity to show it to 
you.
    Representative Lofgren. I actually toured, I think we all 
have--if I may continue, Mr. Chairman--there is something about 
being there right outside the floor of the House and to have 
all the statues of all the native peoples someplace else is 
going to become an issue, I guarantee you. So I think that we 
need to explore that and come up with a different method as 
well as consulting with the delegation.
    Chairman Ehlers. Thank you for the comment. Any further 
comment?
    Representative Millender-McDonald. Mr. Chairman, let me 
concur with the gentlelady from California, it is a sensitive 
issue that I think really deserves some further exploration. 
And I also concur that the Hawaiian statue that is hidden 
certainly should come out and come forward and be seen. And it 
is imperative that we do consult with those representatives 
representing those states so that we can ensure that they are 
satisfied with what you are saying.
    I also concur with what you are saying, that you are 
putting them in, I guess, a better light that will be 
representative of where and who they are, but it is very 
important that we get some sense of those who are 
representative of those States.
    And in saying that, Mr. Chairman, I just want to reiterate 
that Congresswoman Norton does have an issue that I hope we can 
resolve as well with reference to statues depicting and 
representing the District of Columbia.
    Chairman Ehlers. Any further discussion or comments? I 
would like to thank Ms. Lofgren for her comments on this and 
your affirmation of that. And obviously, we can't do that in 
this formal setting, but it may very well be that we should 
call a meeting with--or invite Members of the House, Members of 
the Senate to review the document, submit their comments to us 
before we make any final decision. I appreciate the wisdom of 
that.
    Any further discussion on the Architect's testimony up to 
this point? If not, we will move on to discussion of selection 
of the National Endowment For the Arts in connection with the 
Rosa Parks statue. You may proceed.
    Mr. Hantman. Yes, Mr. Chairman.
    In accordance with PL 109-16, a statue of Rosa Parks will 
be placed in National Statuary Hall to honor her role as a 
pioneer in the civil rights movement. The majority of the works 
of art in the U.S. Capitol have been donated by outside 
entities and have been accepted by Congressional authority, 
generally by the Joint Committee.
    The last full length statues were commissioned by the 
Congress in 1870, and the most recent example of a joint 
commission for a work of art was that for Martin Luther King, 
Jr., the bust that was dedicated in 1986. The artist was 
selected through a competition run by the National Endowment 
for the Arts and the artist's contract was with the JCL.
    Currently, there is an amendment to the 2007 leg branch 
appropriations bill that would provide the JCL with the ability 
to grant authority to the AOC to contract for a sculpture of 
Rosa Parks. Once the legislation is passed, the AOC will enter 
into a memorandum of understanding with the NEA, but the JCL 
will remain the decision-making authority.
    The approach we propose to take to commission the statue on 
the advice and recommendations of the AOC, the Senate and the 
House curators is to follow the general guidelines for 
replacement statues to the National Statuary Hall collection 
that were approved by the JCL in 2000.
    With these guidelines and requirements in place, an open, 
national designed competition would be held under the 
administration of the NEA. A deadline would be established and 
a proposal sent in by prospective sculptors would be screened 
for completeness and suitability by the NEA. The
    NEA then, in consultation with the JCL, the AOC, the Clerk 
of the House and Secretary of the Senate, would set up an 
outside advisory panel of approximately 9 people to include 
experts on civil rights history, African American art and 
history and portrait sculpture, as well as museum directors and 
curators and one layperson.
    At least five semifinalists would be selected by the panel. 
The semifinalists would then be commissioned to create 
maquettes, which would then become property of the U.S. 
government. The maquettes would be displayed, evaluated by the 
advisory panel, which would then make recommendations. The JCL 
would then select an artist. A contract between the contractor 
and the AOC would then be signed and a statue will be created. 
Upon its completion, the JCL will approve the statue's 
permanent location, and Congress will determine the date and 
the location of an unveiling ceremony.
    My office has submitted a detailed plan for the record, and 
we look forward to receiving the committee's final approval to 
move forward with the process upon passage of the fiscal year 
2007 leg branch appropriations bill.
    Chairman Ehlers. Any question or comment on this process?
    Representative Millender-McDonald. Mr. Chairman.
    Chairman Ehlers. Ms. Millender-McDonald.
    Representative Millender-McDonald. I thank you very much, 
Mr. Architect, for your comments. It seems to me a thorough 
understanding of the principle of placing Rosa Parks statue in 
a place that is visible and that will be complimentary of the 
work that she did.
    Most people think that it was Dr. Martin Luther King who 
started this. It was really Rosa Parks refusing to get up from 
a bus that really catapulted the civil rights movement. So your 
outside advisory panel is right in order to ensure that you 
have experts who really know about the civil rights movement.
    I was a young girl at the time, so I certainly have my 
knowledge of it, but I applaud you for getting this outside 
panel that will have a deep understanding of the civil rights 
movement. And I would hope, Mr. Chairman, and Mr. Architect, 
that we do not have a statue that is depictive of Dr. Martin 
Luther King. I do not like that sculpture because his hands are 
all underneath some type of a panel or podium. This man was a 
great orator, it should seem that his hands would be up in the 
air someplace as opposed to tucked down in this base that is 
there. And so I am hoping that perhaps we can get someone to 
really do another statue of Dr. Martin Luther King that is 
depictive of the outstanding American that he was.
    So I am hoping that Rosa Parks sculpture would be one that 
really depicts this lady, either sitting on the bus or 
something that really connotes her outstanding contribution to 
this country and the world. It is not just for African 
Americans that these contributions were made, it was for all 
Americans.
    And so Mr. Chairman, I hope we approve this proposal, which 
will supply an orderly process to select a sculpture and to 
generate a magnificent statue of Rosa Parks for display in 
Statuary Hall or wherever that final destination will be.
    I commend the curators of the Capitol and of the House and 
the Senate for their efforts here, and we need to move forward 
on this. And that is my recommendation, thank you, Mr. 
Chairman.
    Chairman Ehlers. Thank you.
    Yes, Ms. Lofgren.
    Representative Lofgren. This is the first time I have been 
involved in this, I don't know what the process is. Does the 
committee get another look at this before--I was in local 
government for a long time, and I learned the sad story that 
delegating the art work to a committee can actually lead to 
problems. And so I am hoping that we might get another look at 
this before the whole process is done.
    Mr. Hantman. This committee actually has the final say on 
the selection.
    Representative Lofgren. But we would get a mark up before--
--
    Mr. Hantman. Yes. The NEA would select five finalists and 
the maquettes, the small models of these, would come before 
this committee for selection of the one that actually gets to 
be implemented.
    Representative Lofgren. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Ehlers. Thank you for the comment.
    Yes, Ms. Miller.
    Representative Miller. Yes, very briefly. It is my 
understanding there is about $300,000 in the appropriation 
process, it may be a little more than that.
    Mr. Taylor. 370.
    Representative Miller. I have no idea how much a statue 
like this costs, and I am not really that interested in it; 
whatever it is going to cost, I know we are going to want to 
fund it.
    And I would also say this, many people think about Rosa 
Parks as being from Alabama, but subsequently, she moved to 
Detroit, Michigan and we called her Mother Parks. And last 
October at her funeral it was an unbelievable event. And then 
to have her lie here in state--the first woman, actually, I 
believe, and the second African-American ever to do so, so it 
is very appropriate that we do move forward in this and make 
sure we fund it to whatever we need to do to recognize an 
extraordinary American. Thank you.
    Chairman Ehlers. Thank you. And I would also mention for 
everyone's information that this process was started by a 
statue. And so much of what we are talking about is determined 
in that initial piece of legislation, including placement. And 
so if there are questions about that, look at it.
    But I would like to hear input from all my members about 
this as we go along, but also from you. I hope we see the 
progress of it rather than--I have been precisely the same 
position as Mrs. Lofgren at the local level. You cannot imagine 
the horror of dealing with 20,000 angry constituents about how 
their money has been spent, and so we want to be certain that 
we are kept up to date as this progresses. Thank you.
    On that, we need to go through a legal motion on this. I 
move to allow the Architect of the Capitol to enter into an 
interagency agreement with the National Endowment of the Arts 
to run the selection process for selecting a group of 
appropriate artists for the Rosa Parks statue. The JCL will 
then be responsible for making the final selection from the 
panel of artists, and the Architect will sign a contract with 
the artist. The question is on the motion----
    Representative Millender-McDonald. So moved, Mr. Chairman.
    Chairman Ehlers. All those in favor say aye. Aye. Those 
opposed, no. The ayes have it. The motion carries.
    Two other items that we have to cover, the first is the 
Helen Keller statue, and I believe you have something to report 
on that.
    Mr. Hantman. Yes, Mr. Chairman, thank you.
    The last update with regard to statues specifically 
involves the proposed replacement of one of Alabama's statues, 
as you mentioned, Mr. Chairman, Jabez Lamar Curry with one of 
Helen Keller. As you know, this would be the second replacement 
statue. The State of Kansas recalled Governor Glick and brought 
General Eisenhower into the Rotunda for us. And so that 
essentially was the logjam that broke the dam, and now we are 
seeing other States recommending replacement statues, and this 
is the first of the next batch.
    The JCL approved the proposal in September of 2001 and 
approved the concept of depicting Helen Keller as a child at 
the pump where she first understood the word ``water'' in May 
2005. The committee has yet to give its final approval to the 
design of the statue or the inscriptions intended to appear on 
the pedestal.
    Based on the expertise and advice of the AOC curator, I 
recommend to the committee that modifications to the statue's 
design and inscriptions be made before final approval is 
granted. These changes would ensure that the statue is 
consistent with others in the National Statuary Hall 
collection. These recommended changes include increasing the 
height of the pedestal, eliminating overhanging ivy and 
reducing the number of ivy leaves projecting from the statue 
which could pose a safety hazard. To modify and to reduce the 
number of plaques on the pedestal to ensure that all 
information would be seen, and to minimize use of colored 
patinas to ensure that the statue can be easily maintained and 
repaired.
    Chairman Ehlers. Thank you for that report. I just want to 
make two quick comments on that.
    First of all, I am concerned about the request to increase 
the height of the platform because I thought one of the assets 
of this statue, since it portrays Helen Keller as a child, one 
of the major assets would be that the children visiting the 
Capitol would see a statue of someone their size and someone 
similar to them. And it seems to me that the higher the 
pedestal, the less the children will regard this as a 
compatriot, someone that they can aspire to be. And I just 
wanted to pass on that comment.
    As far as the ivy, that is a very tricky question, I am not 
sure how they will solve that. One of my fictitious suggestions 
is that we just plant ivy in a pot and change it every six 
weeks. It would make it the most interesting statue in the 
Capitol.
    With that, we will turn to other----
    Representative Millender-McDonald. Mr. Chairman.
    Chairman Ehlers. Ms. Millender-McDonald.
    Representative Millender-McDonald. I, too, was concerned 
about the ivy all around, but I was deeply concerned about a 
woman who dared to be different, a woman who is recognized as a 
woman for all of her contributions. I have a book here that 
speaks to her meeting with numerous presidents and had a long 
tradition of meeting with presidents from Grover Cleveland 
through John F. Kennedy, Harry Truman was moved to tears by 
this extraordinary woman.
    And so, as I go further into the book, we talk about her 
visiting wounded soldiers at a hospital in North Carolina in 
1945. Most of us--and perhaps while there is flattery about 
continuing to say ``young women'' around this room, this is 
where I best remember Helen Keller. And it seems to me that it 
will be more prudent, I guess you might say, or certainly 
should be thought about that we display her as a woman as 
opposed to a child.
    And I understand what the chairman speaks about in terms of 
children, but a lot of her contributions, top fund raiser for 
The Blind Foundation, many, many other contributions that she 
has made to this society, an extraordinary American, it seems 
to me that no boundaries to courage that you will find her more 
as a woman who received degrees in different places.
    Mr. Chairman, it just seems to me that while we are 
awaiting the final decision from Alabama in terms of changing 
the statue from Mr. Monroe Curry to Ms. Keller, it seems to me 
fitting for that to happen. But of course, as my colleague from 
California says, we have to make sure that full representation 
of Alabama is on track. I am not sure whether they have made 
the final approval of that, and you can answer that. But my 
suggestion would be to have a picture of this extraordinary 
American woman who dared to be different as a woman as opposed 
to a child. Thank you, Mr. Chairman.
    Chairman Ehlers. I believe--well, I will have to ask you 
what the role is of the Federal government versus the state. 
But it is my understanding the state's specific request is that 
they be allowed to portray her as a child; is that correct?
    Mr. Hantman. That is correct, Mr. Chairman. In May of 2005, 
in fact, that specific request came through the State, and this 
committee approved that.
    Chairman Ehlers. And does the Congress have a role in 
choosing the statues, or do we generally accept----
    Mr. Hantman. Each individual state basically chooses their 
own sculpture and how they will portray the individual, how 
they are honored, and this would be the first child, of course.
    Chairman Ehlers. Perhaps you would like to express our 
concern to the Alabama delegation.
    Representative Millender-McDonald. Well, having been born 
in Birmingham, Alabama, I will certainly revert back--though I 
have lived in California for 51 years, I will revert back to 
my--bring it up in Alabama and talk with them.
    Thank you, Mr. Chairman.
    Chairman Ehlers. Please do that. And I didn't realize you 
were born in Alabama. That means in another 50 years your 
statue will replace----
    Representative Millender-McDonald. I thank you very much, 
Mr. Chairman.
    Chairman Ehlers. Well, we can now proceed--yes, Ms. 
Lofgren.
    Representative Lofgren. I understand the Architect's point 
that this statue at this stature is going to look very out of 
place; I mean, it doesn't look like--it doesn't have the 
gravitas of the rest of the statues. And I understand our 
position about children being able to see it, but I am 
wondering if that issue could be addressed, it will go in the 
new Visitors Center in all likelihood, because it is the last 
one through placement so the children might be able to see it 
well and allow it still to have the kind of presence that 
matches the other statues. Is that a--I am just trying to 
visualize----
    Mr. Hantman. That is absolutely one of the issues. Most of 
the statues in the collection are about 7 feet high and about 
10 feet with the bases on it. This statue basically is 6,8" 
high, and the statue itself is only 57 inches high.
    So the concept of if it is part of a collection in the 
hall, how does it have the gravitas, how does it have the 
presence in the space while still accomplishing what the 
chairman is talking about so that children can appreciate that? 
We think that the 2-foot base is rather low at this point in 
time, which is why the recommendation was made to increase 
that.
    Representative Lofgren. I think from my own point of view 
that the draft letter that is before us is appropriate. And I 
don't know if you want to do a motion or alteration of the 
letter, but that is my opinion.
    Chairman Ehlers. We can certainly proceed and keep 
interacting with the Alabama delegation and their legislature 
on this issue. Speaking for myself, I look much, much better as 
a child than I do today. That is pretty obvious. Everyone would 
smile at my childhood picture.
    We have one other item, the National Garden, you are to 
report on that?
    Mr. Hantman. Yes, Mr. Chairman. I am pleased to report that 
the National Garden will be open to the public on October 1st. 
To date, construction is 97 percent complete, the finishing 
touches are underway in the Rose Garden, the Hornbeam Court, 
the Lawn Terrace, and the Butterfly Garden. What you see before 
you over here on this easel is a photograph taken earlier this 
month. So when we talk about the Hornbeam Garden, we are 
talking about this area here. And of course, this is the 
conservatory building. The Capitol building is off to the top 
left. We are talking about the lawn panel over here, the Rose 
Garden, First Lady's Water Garden over here. This is the 
regional garden coming through this area, with a bridge 
crossing over it. So what we are seeing here, we already have 
130 trees planted there. Much of the foliage is being put into 
place.
    So there are three areas really where work is ongoing. In 
the regional garden, they are completing the boardwalk, the 
amphitheater seating, and the fence installation. The 
amphitheater is down over here, and we are using stone actually 
from the east front expansion that was done back in 1959, stone 
from that east front expansion will be on the amphitheater 
seats over here. The boardwalk is 40 percent complete, the 
fence is 50 percent installed, and gates will be installed once 
the fence is completed.
    General site work, specifically the gravel pathway, is 
about 40 percent, blue stone curbing about 80 percent, and the 
placement of the donated soil is 85 percent complete. In 
addition, we awarded a separate contract for the sidewalk work 
in April, and work is progressing along Independence Avenue and 
also up 3rd Street over here.
    The National Garden and the Capitol Grounds Sidewalk 
Project teams are coordinating their efforts to ensure there 
are no project disruptions.
    According to the contract, the construction is scheduled to 
be complete on August 15th. The planting and landscape is 
occurring in conjunction with the ongoing construction, thereby 
allowing us to be remain on schedule for the planned opening. 
Contractual communications have been exchanged, addressing 
changes and completion dates, and the potential for the 
assessment of liquidated damages after a full review with the 
contractor.
    Mr. Chairman, we will soon be coming full circle on this 
project. It was on October 1, 1988 that PL 100456 was signed, 
authorizing the Architect of the Capitol to construct a 
National Garden to be funded solely by private donations raised 
by the National Fund For the U.S. Botanic Garden.
    This project is the first public/private partnership 
project for the AOC, and we are immensely proud of this 
partnership's success as we carry out our mission.
    This project has been an amazing collaboration, and the 
stage is being set for a beautiful grand opening, thanks to the 
members of this committee, the Congress, the National Fund, the 
sponsors, the contractor and the AOC staff.
    Chairman Ehlers. Thank you for that report. Are there any 
questions? Yes, Ms. Lofgren.
    Representative Lofgren. I have a suggestion that I think is 
completely compatible with what you have outlined. Recently--I 
think yesterday as a matter of fact--a volunteer from a non-
profit organization called Open Parks came to visit me, and I 
raised this issue in when we had the Smithsonian before us as 
well--their goal is to make Wi-Fi access available throughout 
the Mall and even up here. And I was, as we were talking 
earlier about the digital collection and accessing what we have 
in the Library, I was thinking wouldn't it be great if we could 
have free Wi-Fi also in this library, and people could access 
parts of the collection that relate to this.
    So I am wondering if you would be willing to sit down with 
this nonprofit--if there are other nonprofits, I don't want to 
discriminate against them either--so that we could have a free 
Wi-Fi service in this park. And I think there is a goal. And I 
want to talk to the Chairman about other opportunities to make 
sure that visitors to the Capitol can access all the 
information on our rich history while they are here online.
    Mr. Hantman. We are certainly always interested in 
enriching our visitors' experience; we would be more than happy 
to explore any possibilities out there.
    Chairman Ehlers. Might I just mention, our staff has done a 
fairly extensive study of this issue. And I personally, as a 
techy, think it is a great idea, but there are also some 
problems involved. So I would like to suggest that your staff 
and our staff sit down and hash this out.
    I think it is a policy issue that is not going to go away, 
and I would like to find some suitable solution; but it is not 
obvious what a suitable solution is.
    Representative Lofgren. Well, I would welcome that, Mr. 
Chairman, in the hoping that we can move forward.
    And I think actually the ability to put Wi-Fi in, it is not 
constrained by--there is no need to slow this up. It is a small 
addition, it is compatible with what you have got, so thank you 
very much.
    Chairman Ehlers. Thank you.
    Any further questions? Any further comments, Mr. Hantman?
    Mr. Hantman. I thank you very much for the opportunity to 
share these issues with you. As you started off up front, the 
issue of trying to work through the statues for the CVC and the 
rearrangement of the statue collection in the Capitol is an 
important one, and I look forward to working with you to 
resolve them, and work with the states involved as well.
    Chairman Ehlers. Thank you. That concludes our business, 
although I am going to ask some of you to stay so please don't 
rush off, but that concludes the business before the Joint 
Committee today.
    I certainly thank everyone who has worked hard for this. I 
personally think this is one of the most productive meetings of 
the JCL that I have participated in for some time, and we got a 
lot accomplished.
    I want to thank Senator Stevens and his staff as well for 
their work in helping us prepare for this, I just regret that 
the Senators were unable to be here, but their staff is here 
representing them, and so I am sure they will be briefed on all 
these issues.
    I ask unanimous consent that members have 7 calendar days 
to submit material into the record, and for those statements 
and materials to be entered into the appropriate place in the 
record. And without objection, the material will be so entered. 
So ordered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee at today's meeting. Without objection, so 
ordered.
    Having completed our business for this meeting, the meeting 
is hereby adjourned.
    [Whereupon, at 4:06 p.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T2721A.008
    
    [GRAPHIC] [TIFF OMITTED] T2721A.009
    
    [GRAPHIC] [TIFF OMITTED] T2721A.010
    
    [GRAPHIC] [TIFF OMITTED] T2721A.011
    
    [GRAPHIC] [TIFF OMITTED] T2721A.012
    
    [GRAPHIC] [TIFF OMITTED] T2721A.013
    
    [GRAPHIC] [TIFF OMITTED] T2721A.014
    
    [GRAPHIC] [TIFF OMITTED] T2721A.015
    
    [GRAPHIC] [TIFF OMITTED] T2721A.016
    
    [GRAPHIC] [TIFF OMITTED] T2721A.017
    
    [GRAPHIC] [TIFF OMITTED] T2721A.018
    
    [GRAPHIC] [TIFF OMITTED] T2721A.019
    
    [GRAPHIC] [TIFF OMITTED] T2721A.020
    
    [GRAPHIC] [TIFF OMITTED] T2721A.021
    
    [GRAPHIC] [TIFF OMITTED] T2721A.022
    
    [GRAPHIC] [TIFF OMITTED] T2721A.023
    
    [GRAPHIC] [TIFF OMITTED] T2721A.024
    
    [GRAPHIC] [TIFF OMITTED] T2721A.025
    
    [GRAPHIC] [TIFF OMITTED] T2721A.026
    
    [GRAPHIC] [TIFF OMITTED] T2721A.027
    
    [GRAPHIC] [TIFF OMITTED] T2721A.028
    
    [GRAPHIC] [TIFF OMITTED] T2721A.029
    
    [GRAPHIC] [TIFF OMITTED] T2721A.030
    
    [GRAPHIC] [TIFF OMITTED] T2721A.031
    
    [GRAPHIC] [TIFF OMITTED] T2721A.032
    
    [GRAPHIC] [TIFF OMITTED] T2721A.033
    
    [GRAPHIC] [TIFF OMITTED] T2721A.034
    
    [GRAPHIC] [TIFF OMITTED] T2721A.035
    
    [GRAPHIC] [TIFF OMITTED] T2721A.036
    
    [GRAPHIC] [TIFF OMITTED] T2721A.037
    
    [GRAPHIC] [TIFF OMITTED] T2721A.038
    
    [GRAPHIC] [TIFF OMITTED] T2721A.039
    
    [GRAPHIC] [TIFF OMITTED] T2721A.040
    
    [GRAPHIC] [TIFF OMITTED] T2721A.041
    
    [GRAPHIC] [TIFF OMITTED] T2721A.042
    
    [GRAPHIC] [TIFF OMITTED] T2721A.043
    
    [GRAPHIC] [TIFF OMITTED] T2721A.044
    
    [GRAPHIC] [TIFF OMITTED] T2721A.045
    
    [GRAPHIC] [TIFF OMITTED] T2721A.046
    
    [GRAPHIC] [TIFF OMITTED] T2721A.047
    
    [GRAPHIC] [TIFF OMITTED] T2721A.048
    
    [GRAPHIC] [TIFF OMITTED] T2721A.049
    
    [GRAPHIC] [TIFF OMITTED] T2721A.050
    
    [GRAPHIC] [TIFF OMITTED] T2721A.051
    
    [GRAPHIC] [TIFF OMITTED] T2721A.052
    
    [GRAPHIC] [TIFF OMITTED] T2721A.053
    
    [GRAPHIC] [TIFF OMITTED] T2721A.054
    
    [GRAPHIC] [TIFF OMITTED] T2721A.055
    
    [GRAPHIC] [TIFF OMITTED] T2721A.056
    
    [GRAPHIC] [TIFF OMITTED] T2721A.057
    
    [GRAPHIC] [TIFF OMITTED] T2721A.058
    
    [GRAPHIC] [TIFF OMITTED] T2721A.059
    
    [GRAPHIC] [TIFF OMITTED] T2721A.060
    
    [GRAPHIC] [TIFF OMITTED] T2721A.061
    
    [GRAPHIC] [TIFF OMITTED] T2721A.062
    
    [GRAPHIC] [TIFF OMITTED] T2721A.063
    
    [GRAPHIC] [TIFF OMITTED] T2721A.064
    
    [GRAPHIC] [TIFF OMITTED] T2721A.065
    
    [GRAPHIC] [TIFF OMITTED] T2721A.066
    

</pre></body></html>
